INVESTIGATIVE MEMORANDUM ON
MANAGEMENT ISSUES

                                                                              March 27, 2006

To:     Jeffrey Risinger

From: Walter Stachnik

Re:     Workplace Violence Prevention Program (PI 06-17)

During the course of an inquiry recently conducted by the Office of Inspector General
(PI 06-17), we observed that the SEC has not updated its policy prohibiting workplace
violence and has no formal procedures for preventing and addressing potential violence
in the workplace.

The Executive Director issued a Policy Prohibiting Workplace Violence on December 6,
1999. To our knowledge, this policy has not been updated and is currently not on the
Commission’s Intranet.

Shortly after December 6, 1999, at the direction of the Executive Director, a Workplace
Violence Prevention Task Force (Task Force) was convened, comprised of
representatives from several SEC divisions and offices. The Task Force met over several
months and developed numerous recommendations designed to assist the SEC in
preventing workplace violence and addressing any threatened or actual violence in the
workplace. To our knowledge, the majority of the Tasks Force’s recommendations have
not been implemented. 1

The Office of Human Resources (OHR) has recently restarted the process of establishing
formal policies and procedures for preventing and addressing workplace violence. OHR
intends to consult with members of the prior Task Force and other relevant offices, and to
develop draft policies and procedures that will be circulated for review and approval.
The approved materials will be posted on the Intranet and distributed to Commission staff
by e-mail. See Attachment.

Recommendation A

The Office of Human Resources, in consultation with the Office of the Executive
Director and the Office of Administrative Services, should update the policy prohibiting

1
  The Task Force’s recommendations regarding enhancements to physical security at the Commission’s
headquarters’ facility have been implemented, or are no longer applicable as the Commission has moved to
a new facility.
workplace violence and develop formal procedures for preventing and addressing
workplace violence. OHR should consider the recommendations of the Task Force in
developing these policies and procedures. The updated policies and procedures should be
posted on the Intranet and distributed to Commission staff by e-mail.

Attachment

cc:    Peter Uhlmann
       James McConnell
       Darlene Pryor
       Adam Ramsey
       Linda Borostovik
       Annie O’Donoghue
       Eric Eskew




                                                                                      2
